nn

OCKLE

231] Douglas Street A . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B X iefs contact@cock elegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1143

DENISE A. BADGEROW,.
Petitioner,
v.
GREG WALTERS. ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), ! certify that the BRIEF OF ARBITRATION
SCHOLAR IMRE STEPHEN SZALAI AS AMICUS CURIAE IN SUPPORT OF
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7981 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of September, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GERERAL he wt, | State of Hebraska ) / Zz Chi,
he wt, | Jf GOSS “

My Comin. Exp. September 8, 2023
Notary Public Afflant 41475

 
